     e1/87/ 2e89 89:58  8ee8ee ee88                                      LOS ANGELES OIG                                 PAGE    82/03
      JM III U~ Ub::n a                                                                                                     rJ , c.



 (

                             NA'llONAL RAILROAD I.'ASSENGER CORPORATION
                                   OFFICE OF TIm INSPECTOR GENERAL
                                       OFl!'lCE OF INVESTXGATWNS
                                    !NYES TIGA' flVE CLOS ING JUlIl:'ORT

                           Tholt· _Scm p                                            CASE NlJMllERI          07.084
                TITLE;
                DA.TE OF REPORl';      January 6, 2009 fl)/
                REl'OR T }'REPARED nv:                                   fflfA

                I.         IDmINGS OF FACr ANI} RECOMM@J.!M,~

                A.         J.l1NI!JNGS OF I,'ACT

                     1.,      OT received illfommtion from
                              Amtcal< Polico 1.1ellmtmetl!


                              were brlnslng large
                              Wiio~rk.biiaigiiSiiand tool -at"0""""':"
                              i                   [ncated
                              II) $1,000.00 dollars pel' day.

                     2.       01 obtained and' roviewed                        records of purchases of scrap at lis
                                            area yards. 01 also           obtalne d a list of _       employees and
                                                   Ilames to tile       names    of  tlle  seller.  contained ill tho
                                                        For nil     JlBmo  matche s, 01   obtaine d copies  of Aml[ilk

                              photo [delltifi
                                      driver'saatiou
                                                 licenses             at t=hio~=C'~
                                                                  d~~==
                                                      cord.on"'.~£lie                       :ihs;to the             of
                                                _and
                                          as   Amtrak employees who bad sold scrnp at

                     3.        OJ 1lI1~ APD visitcd the                           and llltorviolVcd _
                               jX)rsonnol, who confirmed that                 _          were regular customers.
                              • ~!!!!!!!~ernployce.S           showed
                                                                 01
                                                        and Indicated that
                                                                               U10
                                                                           ai.m:.
                                                                                    types
                                                                                  items
                                                                                          ofllllltcrlnls brought ill
                                                                                         such  oS copper wtre and
                               by _        and
                               brass werc not dIstinctively marked, It would   not   be possiblo  to ideutil'y tltose
                               items 'as AmtTak property.                                                    '

                     4.                   wIU"U from Am! ...k boforo lin w.e                     and or VJRS no! "hI"
                               to                   that         sold Amtrak   materials to                Although
                               or could not      SUbs!llIltintotha! the  material          sold  to
                               improperly removed from Amtrak, when OJ and APD intcl'v icwcc liiiil
                               made severol false st.tol\\en!s rcgru:ding WM scrapping actlvltics. or              un
                             ,.A.li11lIlulintstmllve Report to manage   lllent Oil Novotll be,' 25, 2008  oo/loom inf)
                                          ' 5 COli duct.                                   '

\,
                 ll:\my dOellnlentR\07·084 closing rcport.docKl'age 1 of2
    01/07/ 2009    09:50       000000 0000                          LOS ANGELES DIG                              PAGE   03/03
     Jan 01 09 OGd)? ..                                                                                             p."



(

                       s.    _        WAS charged violatIons of Amtrak's Standards of
                                                                                              Hl{ccUcllce aud
                              Polioy and Procedures PIl2.1.1.       ~ai     ved  IDS fOIDlallnvestigal\oJ) and
                              received u ten.(\ay slIspcllsiOl\ for his actions.

                  n.        RECOMMENDAtIONS

                       I.     Closc case.

                  ChiefInspectol':_ __




                  E:\my dOCtlD1ents\O'l·084 closing report.docKPage 2 of2
